No. 19-123

 

IN THE

Supreme Court of the United States

SHARONELL FULTON, ET AL.,

Petitioners,
v.

CITY OF PHILADELPHIA, ET AL.,
Respondents.

On a Petition for a Writ of Certiorari to the United
States Court of Appeals for the Third Circuit

Brief of 44 United States Senators and
Members of the House of Representatives
as amici curiae in support of Petitioners

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,786 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2019.

L

Colin Casey Hogan’
Wilson-Epes Printing Co., Inc.
